DOE/IG-0439




         AUDIT
        REPORT

                                             THE
                                U.S. DEPARTMENT OF ENERGY'S
                                   IMPLEMENTATION OF THE
                                 GOVERNMENT PERFORMANCE
                                       AND RESULTS ACT




                                            FEBRUARY 1999




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                              February 4, 1999


MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on "The U. S. Department of Energy's
                      Implementation of the Government Performance and Results Act"

BACKGROUND

The Government Performance and Results Act of 1993 (Results Act) was enacted to improve Federal
program effectiveness and public accountability by promoting a new focus on results-oriented management.
The Results Act requires plans that define the mission, long-term goals, and shorter-term performance
measures. Further, the Act envisions that there will be an apparent relationship between this information and
specific activities listed in the Department’s budget requests. Taken together, these elements should clearly
describe the outputs and outcomes the Department expects to deliver for the resources expended.

The objectives of this audit were to determine whether the Department had implemented the requirements of
the Results Act by (1) integrating the planning, budgeting, and performance measures for its programs into a
unified, Departmentwide strategy; (2) developing specific, measurable, and results-oriented performance
standards to which its programs and contractors could be held accountable; and (3) developing the means to
collect reliable performance data and to use that data in evaluating whether performance actions produce
intended results. The information in the Fiscal Year 1999 budget requests for the Offices of Environmental
Management, Defense Programs, Energy Research, Energy Efficiency and Renewable Energy, and Nuclear
Energy Science and Technology formed the basis of our review.

RESULTS OF AUDIT

The Department is making good progress in implementing the Results Act in some areas. The budget
requests for the Offices of Environmental Management and Defense Programs generally demonstrated
proper integration between the long-term strategic and the day-to-day activity-level performance data. In
addition, these budget requests showed progress in the creation of measurable and results-oriented
performance information.

However, the Department’s implementation of the Results Act was incomplete. The budget requests for the
Offices of Energy Research, Energy Efficiency and Renewable Energy, and Nuclear Energy Science and
Technology did not clearly integrate the activity-level performance information with the higher-level planning
information in the Department’s strategic and performance plans. In addition, these budget requests did not
include measurable and results-oriented performance standards to which the programs and contractors could
be held accountable. Furthermore, none of the program offices had defined processes in place to ensure that
all performance data collected from the contractors were reliable. Given these conditions, the Department
may not have a viable, unified strategy for improving the effectiveness and efficiency of its programs.
We believe the lack of integration and measurable, results-oriented data in some program offices occurred
because responsible officials generally lacked experience and clear guidance. We recommended, therefore,
that the Office of Strategic Planning, Budget, and Program Evaluation within the Office of Policy, in
conjunction with the Department’s program offices, strengthen existing policies and guidance to ensure
clear integration between the Department’s strategic documents and the information on specific activities
listed in the budget requests. We also recommended the modification of guidance to ensure that each
performance goal or indicator, to the greatest extent practical, is expressed in a measurable and results-
oriented form. Finally, we recommended the establishment of processes and procedures to collect and
validate the estimated and actual cost information used as a basis for measuring the Department’s
performance.

MANAGEMENT REACTION

The Acting Director of the Office of Strategic Planning, Budget and Program Evaluation within the Office
of Policy generally agreed with our findings and recommendations and felt that the audit would be useful
as the Department continued to improve its guidance and implementation of the Results Act. Specifically,
the Department agreed to improve the links between its strategic plan and budget. Management also
agreed to strengthen existing guidance on performance measurement. However, the Department felt that
recently adopted and existing policies and procedures would be sufficient to provide reasonable assurance
that its cost estimates and actual cost data were reliable.

Attachment

cc: Acting Deputy Secretary
    Under Secretary
The U.S. Department Of Energy's Implementation Of The
Government Performance And Results Act



TABLE OF
CONTENTS

                   Overview

                   Introduction And Objectives ...............................................................1

                   Conclusions And Observations ............................................................3


                   Integration Between Planning, Budgeting, And
                   Performance Measures

                   Details Of Finding ..............................................................................6

                   Recommendations And Comments ......................................................9


                   Measurable, Results-Oriented Performance Data

                   Details Of Finding ............................................................................10

                   Recommendation And Comments .....................................................13


                   Reliable Performance Data

                   Details Of Finding ............................................................................14

                   Recommendation And Comments .....................................................17


                   Appendix 1

                   Scope And Methodology ..................................................................19
Overview
INTRODUCTION AND   The Government Performance and Results Act of 1993 (Results Act)
OBJECTIVES         was created as a tool for holding Federal organizations accountable for
                   achieving program results. One of the purposes of the Results Act is to
                   improve Federal program effectiveness and public accountability by
                   promoting a new focus on results, service quality, and customer
                   satisfaction. In effect, the implementation of the Results Act is intended
                   to change the management culture in the Federal Government from one
                   of spending program dollars to one of results-oriented management.

                   Accordingly, performance measurement under the Results Act requires a
                   change of focus from inputs to management by goals oriented toward
                   outputs or outcomes. Output goals describe a level of activity or effort
                   that will be produced or provided over a period of time or by a specified
                   date. Outcome goals describe an intended result, effect, or consequence
                   that will occur from carrying out a program or activity.

                   The Results Act required Federal organizations to develop formal plans
                   for measuring performance. It required the creation of long-range
                   strategic plans by the end of Fiscal Year 1997 that define the
                   organization's mission and form the basis for performance measurement.
                   These plans lay out long-term goals that describe in general terms what
                   the agency plans to accomplish. The Results Act also required the
                   creation of annual performance plans by the beginning of Fiscal Year
                   1999 that tie the agency's long-term strategic goals to its daily activities.
                   Performance plans are directly aligned with strategic plans and contain
                   short-term performance goals that define the incremental progress
                   necessary to achieve the longer-term goals. Agencies must report on
                   their progress in an annual performance report beginning in March 2000.
                   In turn, The Office of Management and Budget will combine
                   information from all agencies into a Federal Government performance
                   plan.

                   Office of Management and Budget Circular No. A-11 states that
                   performance goals should describe a target level of performance and
                   should be expressed as results-oriented, measurable objectives against
                   which actual results can be compared. Performance goals may be
                   quantitative standards, values, or rates. Performance indicators are used
                   when a goal is not self-measuring and should discuss a particular value
                   or characteristic. The term "performance measure" can refer to either a
                   performance goal or a performance indicator.
                   Performance measurement systems facilitate efficient program
                   management and congressional oversight. For example, managing by
                   goals and milestones can help agencies identify schedule slippage, which

Page 1                                                           Government Performance
                                                                         and Results Act
                      may otherwise go unnoticed. Additionally, information in annual
                      performance plans informs the Congress and the public of the goals for
                      agencies' major programs and activities, how agencies will assess their
                      performance against those goals, and the resources required to meet the
                      goals. Given the potential uses outside the Department, performance
                      data should be expressed in a clear and concise manner and should be tied
                      to program activities listed in agencies' annual budget requests.

                      The usefulness of performance data for decision making ultimately
                      depends on the degree of confidence that can be placed upon it. The
                      Results Act indicates that agencies should have processes in place to
                      verify and validate the values being measured. In keeping with this
                      requirement, the General Accounting Office Assessment Guide to
                      Facilitate Congressional Decision Making indicates that accurate cost
                      information is important for determining how resources are being applied
                      to achieve performance goals. This Guide states that agencies'
                      procedures for verifying their performance data should be credible and
                      specific to ensure that the information is sufficiently complete, accurate,
                      and consistent. The Results Act also allows flexibility in its
                      implementation and indicates that agencies should use existing
                      procedures and processes to the greatest extent possible.


                      The Department of Energy has several diverse missions. These include
                      cleanup of environmental contamination at the nuclear weapons
Production And
                      production facilities, management and stewardship of the nuclear
Research Operations
                      weapons stockpile, and scientific research on the nature of energy. Some
In The Department
                      of the Department's program offices have responsibilities similar to
                      production operations in that they produce tangible results over pre-
                      determined timeframes. Other programs, however, focus primarily on
                      research that deals essentially with unexpected results over unpredictable
                      timeframes.

                      When the Results Act was passed, the Congress recognized that it might
                      take several planning cycles to perfect the performance measurement
                      process. The Department has only recently completed its first attempt at
                      preparing each of the planning elements required by the Results Act.
                      Thus, it may take several more planning cycles to refine each of the
                      elements and properly integrate the performance measurement process.


                      The objectives of this audit were to determine whether the Department of


Page 2                                                             Government Performance
                                                                           and Results Act
                  Energy had implemented the requirements of the Results Act by (1)
                  integrating the planning, budgeting, and performance measures of its
                  programs into a unified, Departmentwide strategy; (2) developing
                  specific, measurable, results-oriented performance standards to which its
                  programs and contractors could be held accountable; and (3) developing
                  the means to collect reliable performance data and to use that data in
                  evaluating whether performance actions produce intended results.


                  The Department's implementation of the Results Act was incomplete.
CONCLUSIONS AND   Some program offices’Fiscal Year 1999 budget requests did not clearly
OBSERVATIONS      integrate the activity-level performance data with the higher-level
                  strategic planning data. This integration is a necessary part of a unified,
                  Departmentwide strategy. In addition, some budget requests did not
                  include measurable and results-oriented performance data to which its
                  programs and contractors could be held accountable. Instead, some
                  performance goals contained vague or subjective language while others
                  omitted certain values that were necessary to properly measure results. It
                  was important for the performance data to be written in an objective,
                  results-oriented, and measurable form so that actual progress toward
                  predetermined target levels of performance could be determined. Finally,
                  we found little evidence to indicate that the Department had processes in
                  place to ensure the reliability of data collected on both the estimated and
                  actual costs of activities necessary to accomplish the stated performance
                  goals.

                  The conditions cited above generally reflect a lack of experience by
                  Departmental officials and a lack of consistent guidance. Earlier pilot
                  projects conducted by certain offices within the Department may have
                  provided them with valuable experience that other offices did not benefit
                  from and must now obtain. Consistent, Departmentwide guidance will
                  improve the clarity and reliability of all performance data as the
                  Department continues its effort to implement the Results Act. Clear
                  integration between long-term planning and activity-level execution, in
                  conjunction with objective, results-oriented, and measurable performance
                  data which is tied to resources, will serve to better show how
                  performance results for specific activities serve to achieve both current
                  and long-term objectives. Efforts to improve the integration and
                  measurability of the performance data must be accompanied by a credible
                  process to ensure its reliability. Without reliable data on the estimated
                  and actual resources necessary to achieve the stated performance goals,
                  the Department may not be able to demonstrate that it has a viable


Page 3                                                         Government Performance
                                                                       and Results Act
         strategy for improving the effectiveness and efficiency of its programs.

         Prior reviews have demonstrated the importance of sound processes for
         validating contractor performance data. The Office of Inspector General
         issued report DOE/IG-0412 on the Audit of the Contractor Incentive
         Program at the Nevada Operations Office dated October 1997. This
         audit found that the Nevada Operations Office developed performance
         measures and incentives for a contractor to reduce operating costs.
         Nevada accepted the contractor's claim that it had saved money by
         reducing internal operating procedures and paid the contractor a cost
         reduction incentive fee of approximately $300,000. However, when
         auditors attempted to validate the contractor's claimed cost savings, they
         found that they could not do so because budget baseline and change
         documents were not available. Nevada admitted that its assessment of
         claimed savings was subjective. It believed that when the contractor
         could identify an action taken to reduce cost and when the savings
         claimed appeared reasonable and consistent with the objectives of the
         performance measure, the claim was valid.

         The Office of Inspector General's report DOE/IG-0404 on the Audit of
         Department of Energy Contractor Occupational Injury and Illness
         Reporting Practices dated May 1997 found that the Department did not
         have a systematic process for periodically validating the completeness and
         accuracy of contractor-generated data. Instead, the Department relied
         heavily on computerized information systems for information. Validation
         processes could have discovered the significant underreporting by the
         contractor and allowed the Department to better measure the contractor's
         safety performance.

         Measurable, results-oriented performance data which is integrated with
         higher level strategies and tied to reliable cost data will also help the
         Department meet its annual financial statement reporting requirements.
         The Office of Inspector General's report IG-FS-98-01 on the Audit of the
         Department of Energy’s Consolidated Financial Statements for Fiscal
         Year 1997 dated February 1998 found that the usefulness of the
         Department's performance measures was limited. The audit showed that
         the performance measures were not always objective and measurable and
         did not sufficiently relate to the Department's missions, goals, or




Page 4                                                Government Performance
                                                              and Results Act
         objectives. The audit also found that performance information was not
         always supported, accurate, complete, or up-to-date.




                                   _________/S/___________
                                     Office of Inspector General




Page 5                                             Government Performance
                                                           and Results Act
Integration Between Planning, Budgeting, And
Performance Measures
Clear Integration   The Department has not integrated the planning, budgeting, and
Is Needed           performance measures of all its programs into a unified strategy. The
                    information in some program offices' Fiscal Year 1999 budget requests
                    did not clearly tie to the information in the strategic and performance
                    plans. Budget requests cover a wide range of data and it was important
                    to clearly show the relationship between the "corporate" level, strategic
                    information and the day-to-day activity-level information. However, the
                    relationship between the data on strategic goals and objectives and the
                    data on specific activities was not always clear. The budget requests for
                    the Offices of Energy Research, Energy Efficiency and Renewable
                    Energy, and Nuclear Energy Science and Technology did not always
                    show the "cascade" from higher-level strategic goals to performance
                    goals, and down to lower-level performance indicators (referred to as
                    "measures").

                    • Office of Energy Research. The high-level goals and strategies in the
                      budget request for the Office of Energy Research generally did not
                      clearly relate to performance data in the strategic and performance
                      plans. For example, the budget listed five strategic goals that we
                      compared to the Science and Technology Section of the strategic and
                      performance plans. We found one goal discussing new insights into
                      the nature of energy and matter that was consistent between the three
                      documents but we were not able to make the linkage for the
                      remaining four goals listed in the budget. Similarly, the budget listed
                      high-level strategies that did not clearly tie to the strategies in the
                      strategic plan.

                    • Office of Energy Efficiency and Renewable Energy. The relationship
                      of lower-level performance indicators to higher level strategies was
                      not always clear for the Office of Energy Efficiency and Renewable
                      Energy. Although long-term "priorities" in the budget request
                      generally tied to "strategies" in the strategic plan, some metrics data
                      within specific priorities did not match those in the strategies.
                      Additionally, within the budget, goals did not always tie to the higher-
                      level priorities. For example, strategic goals for the Industries of the
                      Future included the completion of vision documents and technology
                      roadmaps, but these goals did not clearly link to higher-level priorities
                      for a 5 percent reduction in energy-related wastes. In addition, the
                      Electric Vehicle Batteries Program had both interim goals and
                      strategic goals that did not appear to tie to any long-term priorities.

                    • Office of Nuclear Energy, Science, and Technology. Lower-level


Page 6                                                                    Details Of Finding
                        performance measures in the budget request for the Office of Nuclear
                        Energy, Science, and Technology were not always clearly linked to the
                        higher-level goals. Although the budget listed performance measures,
                        objectives, and goals, it was not always clear which measures were
                        applicable to specific objectives and, similarly, which objectives applied
                        to specific goals. Further, some higher-level goals for Nuclear Energy
                        Research and Development, for example, did not appear to relate to
                        overall goals for the Office of Nuclear Energy.

                     In some cases, the language describing the goals and measures in many of
                     the budget requests was highly technical and difficult to comprehend. This
                     was true for some of the data in the Defense Programs budget request as
                     well. However, with additional explanations from management, we found
                     that the measures related directly to activities at the contractor level.
                     Additionally, some of the terminology used in the various documents was
                     not consistent, as noted in the above use of "priorities" as opposed to
                     "strategies." Given that this effort was in its early stages, we took no
                     exception to the complexity in some of the data. However, we would
                     expect that future efforts to refine performance data in the budgets would
                     result in the use of clearer, simpler, and more consistent language. It
                     should be noted that some of the lack of clarity in the data might stem from
                     the fact that much of the Department's mission work is classified so the
                     specifics of certain projects may be intentionally omitted. Thus, some
                     difficulty in tying specific, activity-level performance measures to strategic
                     data may be expected.


                     The Results Act requires Federal agencies to link strategic and
                     performance goals to budgets. The Department's framework for
Integration Into A
                     implementing this requirement is contained in its Strategic Management
Unified Strategy
                     System. The purpose of this framework is to link strategic planning,
                     performance results, and resource allocation into a unified strategy.
                     Strategic and performance plans discuss corporate level objectives and
                     strategies while budget requests discuss in greater detail the program
                     specific performance goals and measures that support them. The Fiscal
                     Year 1999 budget requests provided the means for the Department to
                     show, in detail, how strategic and performance planning tied to the
                     ongoing activities within a given program office.
                     The lack of clear integration between strategic goals, performance goals,
                     and the activity-level performance data occurred because of the




Page 7                                                                      Details Of Finding
Lack Of Experience   inexperience of Departmental officials in establishing performance criteria.
And Guidance         Some officials also indicated that they lacked consistent guidance. Pilot
                     projects conducted by certain offices within the Department may have
                     provided them at a relatively early stage with valuable lessons in
                     implementing the requirements of the Results Act. Two programs that
                     had experience with pilot projects are discussed below.

                     The budget requests for the Department's two largest offices,
                     Environmental Management and Defense Programs, serve as examples of
                     proper integration between strategic and performance plans and the
                     budget requests. These two budget requests showed a logical "cascade"
                     from higher level strategic goals to performance goals, to lower level
                     performance indicators. Each of the objectives and strategies in the
                     budget request tied directly to those in the Departmental strategic plan. In
                     addition, each objective and strategy included a listing of performance
                     data containing goals, measures, and supporting activities that for the
                     most part tied to bullets under each strategy in the strategic plan.

                     The integration was generally clear because objectives and strategies in the
                     budgets were, essentially, word-for-word repetitions of the language in the
                     strategic and performance plans. Additionally, detailed performance data
                     directly followed the goal that it supported so that there was no confusion
                     as to which measures applied to each goal. As other Departmental
                     elements gain experience, they may also benefit by following examples
                     provided by the Offices of Environmental Management and Defense
                     Programs.

                     Management generally agreed with the need for clearer integration
                     between high-level planning, budgeting, and performance measures. The
                     Offices of Energy Research and Nuclear Energy Science and Technology
                     indicated that their future efforts would include closer coordination with
                     the Office of Strategic Planning, Budget and Program Evaluation. The
                     Office of Energy Efficiency and Renewable Energy provided us with
                     examples of how they might improve the links between their strategies,
                     goals, and performance measures.

                     The Office of Strategic Planning, Budget and Program Evaluation within
                     the Office of Policy and International Affairs, in conjunction with
                     Departmental program offices, should strengthen existing policies and
                     guidance to:




Page 8                                                                      Details Of Finding
RECOMMENDATIONS
                  1. Ensure that data on goals, objectives, and strategies in program
                     budget requests clearly tie to the data in the Department of Energy's
                     Strategic and Performance Plans. To the greatest extent practical,
                     terminology should be consistent between these three sets of
                     documents.

                  2. Ensure that program budgets include clear roadmaps such that each
                     performance indicator or goal is clearly linked to the higher-level
                     goal, objective, or strategy that it supports.


                  The Department concurred and added that part of the problem in clearly
                  linking strategic plan level goals and objectives to budget-level
                  performance goals and objectives was that the strategic plan structure
                  was not completely compatible with the budget structure. In
MANAGEMENT        preparation for its next strategic plan update prior to the Fiscal Year
REACTION          2001 budget submission, the Department plans to establish a structure
                  that would make it easier to clearly link the strategic plan and the
                  budget.


                  Management's proposed actions are responsive to the recommendations.




AUDITOR
COMMENTS




Page 9                                              Recommendations And Comments
Measurable, Results-Oriented Performance Data
Some Data Not       Some budget requests did not include measurable and results-oriented
Measurable And      performance standards to which programs and contractors could be held
Results-Oriented    accountable. Some performance goals were not measurable because they
                    contained vague or subjective language or because certain values
                    necessary to properly measure results were omitted. In some cases,
                    supporting data tended to focus on operating processes rather than
                    results.

                    • Office of Energy Efficiency and Renewable Energy. Some goals for
                      the Office of Energy Efficiency and Renewable Energy's Electric
                      Vehicle Battery Program were not inherently measurable because
                      they contained vague language such as: making electric vehicles an
                      "attractive and preferred option." Thus, these goals should have been
                      clearly linked to measurable performance indicators. However,
                      performance indicators were not always clear, measurable statements
                      of performance but instead consisted of extensive listings of activities,
                      which were sometimes process oriented. These activities included
                      completing tests and continuing evaluations of various technologies
                      being developed by the contractors at the Department's laboratories.

                    • Office of Nuclear Energy Science and Technology. Some objectives
                      and goals in the Office of Nuclear Energy Science and Technology
                      budget request did not appear to be supported by any performance
                      indicators even though they too were not self-measuring. For
                      example, one goal of the Nuclear Energy (NE) Facilities Program was
                      to ensure cost-effective, environmentally compliant operation of NE
                      sites. However, there were no indicators discussing how the office
                      planned to measure the cost-effectiveness of the contractors'
                      operations at its sites.

                    Although the Office of Energy Research had measurable performance
                    data and specified targets for its major construction projects and facilities
                    upgrades, most of its funding was for basic research. Officials in Energy
                    Research indicated that, generally, one cannot predict the results of basic
                    research projects and thus, one cannot specify target levels to be
                    achieved. For the same reason, they indicated that milestones cannot be
                    set beforehand. Energy Research performance measures for basic
                    research, therefore, related to the quality of science as determined by
                    numbers of awards and publications for scientists, user satisfaction, and
                    peer reviews.
                    To serve as viable measures, the indicators discussed above should be
                    established at the initiation of a project so that they become the basis for


Page 10                                                                     Details Of Finding
          evaluating contractor performance. However, the Office of Inspector
          General's report DOE/IG-0407 on the Audit of the Department of
          Energy's Scientific and Technical Information Process dated June 1997
          showed that contractors at the locations audited did not have some of
          these indicators established as deliverables at the outset of the projects.
          Furthermore, the Department had neither a systematic process in place to
          collect the information from the contractors nor a mechanism to compare
          actual accomplishments against expectations. Thus, the Department was
          not in a position to know whether it received value for its investment in
          research and development. The Department agreed with the
          recommendations to identify these deliverables when contractor
          assignments or work authorizations were issued and to establish a
          process to track the deliverables on a life-cycle basis. However, we did
          not test to determine whether these recommendations had been fully
          implemented at the time of this review.

                              Some Data Not Tied To Resources

          We also noted program areas where the ties between resources and
          performance goals could be strengthened. Measurable goals should
          include all values necessary to calculate performance and should display
          the amount of funding sought to achieve the goals. Generally, the budget
          requests for these programs tied resources to listings of activities, but the
          listings did not clearly relate to a measurable goal. The budget requests
          for the Offices of Nuclear Energy Science and Technology, and Energy
          Efficiency and Renewable Energy serve as two examples where the
          Department could refine its performance data to show a clearer link
          between resources and performance goals.

          • Office of Nuclear Energy Science and Technology. Goals in the
            budget request for the Office of Nuclear Energy Science and
            Technology did not always clearly show the resources needed to meet
            them. For example, Nuclear Energy Research and Development had
            goals related to such things as managing facilities in a safe and
            environmentally sound manner and preserving the nation's nuclear
            science and technology for the next century. Resources, on the other
            hand, related to sub-programs such as Light Water Reactors,
            Advanced Radioisotopes, and TRA Landlord subprograms. It was
            not clear how the requested resources served to accomplish the
            goals.
          • Office of Energy Efficiency and Renewable Energy. The budget
            request for the Office of Energy Efficiency and Renewable Energy


Page 11                                                           Details Of Finding
                           included performance goals for hybrid and electric vehicles and for
                           completing industry vision statements, roadmaps, and
                           implementation plans. However, it did not discuss the resources
                           needed to meet each goal. Although the "Performance Summary"
                           included detailed listings of numerous contractor activities under
                           various categories that were tied to resources, it was not always
                           clear how each of these categories of activities tied to the
                           performance goals.


                        Performance goals and indicators should be expressed in an objective,
                        measurable, and results-oriented form and should establish a target
Measurable, Results-    against which actual performance can be compared. Measurable goals
Oriented, And Tied To   should include all values necessary to calculate performance and should
Resources               be tied to resources. Performance indicators are used when goals are
                        not self-measuring. Given that Congress and the public may also use
                        this information, performance data should be expressed in a clear and
                        concise manner.


                        The lack of measurable, results-oriented performance data in some
                        budget requests occurred because of the lack of experience with Results
                        Act requirements and clear, consistent guidance. Departmentwide
Lack Of Clear,
                        guidance is necessary to improve the clarity of all performance data as
Consistent Guidance
                        the Department continues its effort to implement the Results Act. Clear
                        integration between long-term planning and activity level execution, in
                        conjunction with measurable, results-oriented data tied to resources,
                        may serve to better show how performance results for specific activities
                        serve to achieve both current and long-term objectives.

                        Program offices may also benefit by following examples set by the
                        Offices of Defense Programs and Environmental Management. These
                        offices have demonstrated significant progress in creating clear,
                        measurable, and results-oriented goals and indicators linked to
                        resources. Often the performance data showed resources targeted for a
                        specific facility or site, which helps identify the contractor responsible
                        for the intended results. For example, one performance measure in the
                        Defense Programs budget tied a target of three to four subcritical
                        experiments at the Nevada Test Site to an estimate of $82.5 million for
                        Fiscal Year 1998. This performance measure related directly to
                        contractors' work activities. Under the "Performance Summary" for
                        Albuquerque, the Environmental Management budget request showed


Page 12                                                                       Details Of Finding
                 that 24 site closures would be completed at the Department's Pantex site
                 during Fiscal Year 1998 at an estimated $4.2 million. Generally, site-
                 specific performance goals tied directly to Environmental Management's
                 "corporate" performance goals. This level of clarity and conciseness in
                 both these budget requests offered a good indication of expected
                 performance for the resources requested.

                 Management generally agreed with the need for measurable, results-
                 oriented performance data. The Office of Energy Efficiency and
                 Renewable Energy explained their proposals for showing clear and
                 concise goals tied to resources and indicated that they planned to better
                 categorize their goals and measures under the Fiscal Year 2000 budget
                 request. The Office of Nuclear Energy Science and Technology indicated
                 that guidance in creating measurable, results-oriented data would be
                 beneficial.


                 The Office of Strategic Planning, Budget and Program Evaluation within
                 the Office of Policy and International Affairs, in conjunction with
                 Departmental program offices, should enhance existing guidance to
RECOMMENDATION
                 require each performance indicator or goal, to the greatest extent
                 practical, to be expressed in a way that is:

                        a) output or outcome oriented;
                        b) clear and concise, and avoids subjective language;
                        c) measurable such that actual progress in meeting
                           higher-level goals can be determined; and
                        d) tied to projected resources.


                 The Department concurred, indicating that measuring performance was a
                 relatively new discipline for many program offices. The Department
                 believed that its Fiscal Year 2000 performance measures had improved
MANAGEMENT       significantly but expected that it would require several planning cycles to
REACTION         perfect its performance data. Management agreed to improve and
                 strengthen existing guidance on performance measurement.


                 Management's comments are responsive to the recommendation.


AUDITOR
COMMENTS

Page 13                                               Recommendation And Comments
Reliable Performance Data
Contractor Cost       There was no indication that the Department had a defined process in
Data Not Validated    place to ensure that all performance data collected from the contractors
                      were reliable. Specifically, there was little evidence that the Department
                      validated the data on the estimated and actual costs used to measure
                      performance despite the requirements in the Results Act. Validation of
                      all performance data is important because of the two-party relationship
                      between the Department and its contractors. Contractors execute the
                      projects and the budgets, while the Department provides direction and
                      oversight.

                      • Office of Environmental Management. The Office of Environmental
                        Management funds environmental restoration and waste management
                        activities throughout the Department. Although funding levels for
                        these activities were monitored by the Albuquerque Operations
                        Office, we found no process for project managers to validate any of
                        the estimates of project costs prepared by the contractors or any of
                        the costs incurred by the contractors. Given that we noted some
                        instances where the cost data in the budget did not tie to project
                        estimates at the Operations Office, validation of this data may serve
                        to eliminate some of these differences.

                      • Office of Defense Programs. We attempted to obtain cost detail
                        supporting a $49 million budget estimate for various Stockpile
                        Maintenance projects under the Office of Defense Programs, but the
                        project manager was not sure how the estimate was derived or how
                        the money was to be spent. Other officials similarly unfamiliar with
                        their cost data stated that their budget estimates came directly from
                        the contractors and acknowledged that their cost management
                        processes could be improved. In fact, one manager candidly
                        expressed little confidence in the contractor's cost data and indicated
                        that there was a great need for cost validation under his project.


                      The Results Act indicates that agencies should have processes in place to
                      verify and validate their measured values. Values used by the
Processes To Verify
                      Department for performance measurement generally consist of technical
And Validate          goals and milestones for various projects and costs. Accurate cost
Measured Values       information is important for determining how resources are being applied
                      to achieve performance goals. It is important that the validation process
                      extend to both actual and estimated costs because performance
                      measurement involves comparing actual achievement against planned
                      goals. Accordingly, reliable data on both actual costs and budget


Page 14                                                                     Details Of Finding
                   estimates are necessary for proper performance measurement.


                   There were a variety of reasons why project managers did not validate
Current Efforts    the cost data. For example, some managers did not believe that they had
Not Directed       sufficient resources to conduct validations of cost data. Others
Toward Cost Data   concentrated only on monitoring funding relative to amounts
                   appropriated at the start of the fiscal year. While monitoring funds
                   available may be beneficial, it does not provide any basis for assessing the
                   reliability of the original estimates or costs incurred. Without reliable
                   data on both technical progress and costs, decision makers cannot
                   determine whether a strategy is realistic and cost-effective. Thus, the
                   viability of the Department's strategy for improving the effectiveness and
                   efficiency of its programs may be jeopardized. By making cost validation
                   more effective, the Department should be able to better assure the
                   Congress and the public that its program results are based on sound
                   information and analysis.

                   The importance of cost validation to meeting performance objectives is
                   demonstrated by a recent report. The Office of Inspector General's
                   report DOE/IG-0410 on the Audit of Environmental Restoration at the
                   Los Alamos National Laboratory dated July 1997 showed that Los
                   Alamos did not budget and track costs in a way that would allow the
                   Department to determine whether performance objectives were met. The
                   Department and Los Alamos agreed to an overall performance objective
                   that stated that Los Alamos would expeditiously and cost effectively
                   remediate contaminated sites. To meet this objective, Los Alamos
                   budgeted for environmental remediation on a site-by-site basis.
                   However, unbeknownst to the Department, Los Alamos replaced half of
                   the sites originally budgeted for with substitutes. Further, Los Alamos
                   tracked and reported costs in the aggregate rather than on the site-by-site
                   basis as originally requested. Thus, it was virtually impossible to
                   determine whether the money spent on remediation activities met the
                   original objectives. A defined process to validate both budget estimates
                   and costs incurred may have allowed the Department and Los Alamos to
                   better focus on the cost data required for meeting its performance
                   objectives.

                   Although we found no indication that the Department validated any of
                   the project estimates that formed the basis of the budget requests, we
                   found some processes for validating costs incurred. One process for
                   validating costs dealt with a "production" related project with


Page 15                                                                   Details Of Finding
          determinable milestones and outputs, while the other process dealt with
          research related projects. Other programs could benefit by adopting cost
          validation and analyses processes similar to these that follow.

          The Transportation Safeguards Division in Albuquerque indicated that it
          conducted periodic reviews of the contractor's procurements to validate
          reports on project costs incurred. Management acknowledged, however,
          that this process could be improved by auditing other categories of costs
          incurred by the contractor. In addition, a manager in the Office of
          Energy Efficiency and Renewable Energy stated that his office analyzed
          project management costs by project across several Departmental field
          offices. Management claimed that this effort resulted in shifting work to
          field offices with the lowest project management costs per project and
          eliminated the majority of costs paid to one contractor for project
          management assistance. Despite these examples, however, more can be
          done to validate this data as well as the cost estimates in the budget
          requests.

          In contrast to the lack of a defined process to validate costs, there
          appears to be a consistent approach in much of the Department to
          collecting data on progress against project milestones and verifying
          performance results. Departmental officials met with contractor
          personnel on a regular basis to review progress against predetermined
          project milestones. Both milestones and project goals were laid out in
          contractor operating plans and project goals were generally consistent
          with the data in the budget requests. Verification of contractor progress
          may have been done by visual inspection or demonstration of finished
          "products." This approach to gathering data had been in place for a
          number of years, which is consistent with the Results Act's stipulation
          that existing processes should be used to the greatest extent possible.

          Management generally agreed with the need for cost validation
          procedures. Officials in the Offices of Defense Programs and Field
          Management indicated that it was important for the field project
          management personnel with the most knowledge of the day-to-day
          operations of the contractors to have the responsibility for the validation
          process.
          The Office of Strategic Planning, Budget and Program Evaluation within




Page 16                                                          Details Of Finding
RECOMMENDATION   the Office of Policy and International Affairs, in conjunction with the
                 Offices of Field Management and Chief Financial Officer (CFO), should
                 require that project managers adopt processes and procedures to collect
                 and validate the estimated and actual cost information used as a basis for
                 performance measurement.


                 Although the Department agreed with the basic premise of this
MANAGEMENT       recommendation, it believed that recently adopted policies and
REACTION         procedures, in conjunction with those already in place, were adequate to
                 provide reasonable assurance as to the reliability of cost information.

                 With respect to estimated costs, the Department indicated that it issued
                 draft Fiscal Year 2000 budget validation guidance on December 15, 1998,
                 which placed the responsibility for validating contractor budgets on field
                 CFO staffs and program offices. The guidance included steps to ensure
                 that cost estimates are documented and current, to review cost elements
                 (including escalation factors and overhead costs), and to review cost
                 allocations for consistency with cost accounting standards. It also
                 included steps to determine if goals, funding, and long-range plans are
                 consistent with the strategic plan. The Department added that budget
                 validation is now a critical performance measure.

                 With respect to actual costs, the Department indicated that managers
                 attest to the adequacy of performance information in their management
                 representation letters supporting financial statements and that the OIG
                 conducts annual audits to determine the adequacy and accuracy of the
                 Department's financial statements. In addition, contractor systems that
                 accumulate costs are subject to approval by the Department and must
                 meet accepted accounting practices.

                 The Department also indicated that the CFO issued a memorandum
                 instructing field CFO staffs to take a more active role in performance-
                 based contracts to provide additional assurance that costs can be tied to
                 the performance being measured.


                 The Department's recently issued draft budget validation guidance does
                 not state that validation will apply to costs associated with specific
AUDITOR          performance goals and indicators and does not require participation by
COMMENTS         individual project managers directly responsible for the projects being
                 measured. In addition, the efforts listed above aimed at validating actual


Page 17                                               Recommendation And Comments
          costs do not reflect a disciplined approach to managing individual
          projects and their costs. Management representations and Office of
          Inspector General audits pertain to corporate-level accounting data which
          represents the consolidation of a multitude of site-level and programmatic
          transactions into a single set of accounting data. This consolidation
          includes all operations and field offices, laboratories, and power
          marketing administrations. The audit is performed to gain assurance that
          the amounts reported, which often total hundreds of millions of dollars,
          are not significantly misstated. Additionally, while approval of
          accounting systems that accumulate costs is worthwhile, even a perfectly
          adequate system can accumulate unreliable cost data.

          The CFO memorandum dated October 30, 1998, "Field CFO Roles in
          Contract Performance Incentives" relates to the formulation and tracking
          of performance incentives and includes a provision for field CFOs to
          "participate actively in any groups that have a role in validating costs
          related to incentives." However, it does not define "active participation"
          or "validating costs" and it appears to apply only to incentive fees.

          The Department's response does not address our concerns about
          validating estimated and actual cost data. Program office project
          managers should be directly involved in efforts to manage both the
          progress and separate cost elements of individual projects because they
          have the most knowledge of the work conducted by the contractors.
          Thus, the Department should develop a plan that requires project
          managers to adopt processes and procedures to collect and validate
          estimated and actual cost data used as a basis for performance
          measurement.




Page 18                                       Recommendation And Comments
Appendix 1

SCOPE         Audit fieldwork was performed from March through September 1998.
              Our review included five of the Department's largest program offices and
              spanned all four of the business lines in the strategic and performance
              plans. The program offices included in this review were the Offices of:
              (1) Environmental Management under the Environmental Quality business
              line; (2) Defense Programs under the National Security business line; (3)
              Energy Research under the Science and Technology business line; (4)
              Energy Efficiency and Renewable Energy under the Energy Resources
              business line; and (5) Nuclear Energy Science and Technology, which was
              included in all four business lines.


METHODOLOGY   We met with Headquarters program officials in Washington D.C. and
              Germantown, Maryland, to discuss and obtain documentation supporting
              their strategic planning and budget preparation efforts relative to each
              program listed above. In addition, we met with officials in the Office of
              Strategic Planning, Budget and Program Evaluation within the Office of
              Policy and International Affairs. Discussions focused on responsibilities
              throughout the Department for implementing the requirements of the
              Results Act.

              We also met the program officials at the Department's field locations,
              including the Albuquerque Operations Office in Albuquerque, New
              Mexico, the Rocky Flats Field Office in Golden, Colorado, and the
              Savannah River Site in Aiken, South Carolina. Discussions centered on
              information about specific activities selected for review and processes for
              assessing contractor performance relative to those activities. We also met
              with contractor officials at the Los Alamos National Laboratory in Los
              Alamos, New Mexico, and the Sandia National Laboratories in
              Albuquerque, New Mexico, to determine the extent to which their work
              projects and milestones tied to Departmental goals and measures.

              Our objectives focused on performance measurement at the program and
              contractor level. To reach this level of detail, it was necessary to use the
              Fiscal Year 1999 congressional budget requests for each of the five
              program offices listed above. These budget requests generally listed long-
              term strategic goals as well as shorter-term performance goals and
              measures that often discussed detailed activities at specific sites conducted
              by specific contractors. We judgmentally selected a total of 30 activities
              from the 5 budget requests for review. The selection process was aimed
              at identifying activities which, because of their significance, would likely
              be included in the Department's strategic and performance plans. We did


Page 19                                                       Scope And Methodology
          not select these activities with any intent to project results onto a larger
          population.

          Although we looked at whether the Department's strategic and
          performance plans integrated with the detailed performance data, our
          review was not aimed at these higher-level plans and how well they
          satisfied the requirements of the Results Act. In fact, we aimed this
          review at the detailed measures partly to avoid duplicating the results of
          other reviews that tended to focus at the higher levels. For example, the
          General Accounting Office (GAO) conducted a review of the linkages
          between higher level strategic and performance plans and found that the
          Department could improve these linkages by reducing certain superfluous
          plans, clarifying how subordinate plans link to Department-level plans,
          and better aligning the program organization structure with the business
          line structure. The GAO review also attempted to review the linkages
          between annual performance goals and budgetary resources, but detailed
          budget requests containing this information were still in the process of
          being formulated. Our review began after these Fiscal Year 1999 budget
          requests had been finalized.

          The audit was made in accordance with generally accepted Government
          auditing standards for performance audits, which included tests of
          internal controls and compliance with laws and regulations to the extent
          necessary to satisfy the objectives of the audit. Internal controls were
          assessed with respect to the Department's processes for implementing the
          requirements of the Results Act. Because the review of internal controls
          was limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed. Our tests of compliance with laws
          and regulations focused on the requirements contained in the Results Act
          and regulations aimed at the implementation of these requirements. We
          did not rely on computer-generated data in developing this audit because
          mechanisms to collect performance data within the Department consisted
          primarily of meetings and direct observations.

          An exit conference was held with the Acting Director of the Office   of
          Strategic Planning, Budget, and Program Evaluation on       November
          10, 1998.




Page 20                                                   Scope And Methodology
                                                                         IG Report No. DOE/IG-0439

                                CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and,
therefore, ask that you consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of
   the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in
   this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                  Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585

                                     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       Department of Energy Human Resources and Administration Home Page
                            http://www.hr.doe.gov/ig


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.


                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831
